<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
           STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2020

                              ----------                              


                      WEDNESDAY, OCTOBER 23, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:31 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lindsey Graham (Chairman) 
presiding.
    Present: Senators Graham, Leahy, Moran, Lankford, Daines, 
Murphy, and Van Hollen.

                        U.S. DEPARTMENT OF STATE

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The hearing will come to order. Thank you 
all. Ambassador Jeffrey, we really appreciate you being here. 
When I scheduled this hearing, I had no idea how important it 
would be. I cannot imagine a more timely moment for you to be 
before the Senate, and we appreciate all you have done. I share 
the view of everybody on this subcommittee that you are a 
professional. You are really good at what you do, and you have 
probably have not had a lot of sleep lately, but we appreciate 
your efforts to hold Syria together. A quick opening statement.
    We play the ball as we like in golf, at least we are 
supposed to. In foreign policy you have got to look forward, 
but you need to look back and figure out what went wrong. I 
think all of us believe that Turkey's invasion of Syria was not 
a good thing. It was incredibly disruptive, and it is going to 
lead the way for further chaos if it is not corrected. That the 
worst thing to do to our Kurdish allies is to have them deal 
with Turkey and fight ISIS at the same time. We do not believe 
that is a good outcome for the United States. The chaos created 
by Turkey's invasion is going to be to the benefit of the 
Islamic State in Iraq and Syria (ISIS), or Iran, Russia, and 
Assad, and none of us want that. So the question going forward 
is, what can we do?
    The ceasefire today is welcomed news for all in the region. 
I hope it will hold. I met with the Turkish Ambassador. We had 
a pretty good conversation. The safe zone concept is the key to 
making this a win-win. I have said for years now that the 
People's Protection Units (YPG) elements in Syria in the eyes 
of Turkey are aligned with the Kurdistan Workers' Party (PKK) 
and are a terrorist organization. I have also said for years 
now that the Syrian Democratic Forces (SDF) was there helping 
us with ISIS when no one else was, and the YPG elements that 
the SDF were in really made the fight possible.
    The bottom line, about 11,000 casualties from SDF forces to 
destroy the Caliphate. We lost eight Americans in the last 4 
years in Syria. God bless them. But for every SDF casualty, 
that took the pressure off the United States and the Caliphate 
could not be destroyed from the air, it was our SDF partners 
who went on the ground and dugout ISIS. There are 10,000 to 
15,000 fighters still running around Syria and Iraq, there are 
about 12,000 in prison, and the SDF Kurdish forces have held 
the line.
    So I laid out today what success would look like, a safe 
zone that prevents Turkey from being threatened by armed 
elements on their border they consider unfriendly, making sure 
that our Kurdish allies are not ethnically cleansed, continuing 
to have a military presence in Syria on the U.S. side to guard 
the oil fields to make sure they do not fall into Assad, Iran 
hands, and keep partnering with the SDF to make sure ISIS does 
not come back, maintain control of the skies.
    The statement by the President today, I hope and believe, 
is a positive direction, we just need to build upon it. And 
with that will turn it over to Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. Thank you, 
Ambassador for being here. In my years in the Senate, I have 
gotten to know a few career Ambassadors. I compliment you on 
having achieved that. I have been impressed by all those I have 
known. This is a difficult time, I think that would be 
considered an understatement, but many of us have called for a 
comprehensive strategy in Syria that defines U.S. interests, 
and an explanation of how those interests will be protected. I 
have not seen one, not from the prior administration or the 
present administration.
    But in the absence of a strategy, we have seen a dramatic 
about face in U.S. policy, almost on a whim. You and I have 
been in meetings with different Presidents of both parties 
where there is a discussion when major steps are going to be 
taken and you have those for and those against, you have a real 
debate. Here, apparently, the debate is how many characters you 
could fit in a Tweet.
    Now we are debating how to stop President Erdogan from 
eliminating the Kurds. We see Putin and Erdogan shaking hands 
and basically praising each other. They reap the benefits of 
fractures in NATO. We see the deals Putin has brokered for 
Bashir Assad, and for Erdogan to take control of previously 
Kurdish held territory.
    ISIS prisoners have escaped and without going into the 
numbers I think it is fair to say they are significant. 
Commitments by the United States are no longer seen as 
reliable. We have a large number of U.S. nuclear weapons but 
Turkey controls the airfield not us.
    You place all the blame on Erdogan. You suggest that the 
White House was powerless to deter Turkey's invasion of Syria. 
I have a somewhat different view. I think we are in this 
position because President Trump has been in the habit of 
impulsively reversing U.S. policy, this time in an unscripted 
phone call, turning on our allies while praising autocrats like 
Erdogan, ignoring his own advisers, Republicans and Democrats 
alike in Congress, in pursuit of his own personal and political 
ambitions with disregard for U.S. national interests.
    And over the past several weeks what I have heard in my 
State of Vermont, including from people who have served with 
distinction in our intelligence agencies and our diplomatic 
corps, and I suspect you know a number of them, they share the 
goal of bringing our troops home. Obviously we should have 
debated the deployment of U.S. military forces to Syria before 
they set foot there. We should have debated the risks and 
benefits of our partnerships with Syrian militants. But neither 
President Trump nor the Secretary of State has articulated a 
practical strategy in Syria or engaged Congress, either party, 
on these issues.
    Instead President Trump made a bad situation a whole lot 
worse with no apparent consideration of the consequences. But 
then, as he often does, called the debacle a great success as 
if putting that on Twitter would make it so. Ambassador, I hope 
you are going to give us your unvarnished assessment of the 
situation. But let us not forget the President may wake up in 
the morning and change his mind again without consulting 
anyone.
    That is a costly lesson he is given too often, and whether 
it has been voiced publicly or privately, it has caused a great 
deal of concern in both parties including people that you and I 
both respect. Thank you.
    Senator Graham. Thank you Senator Leahy. Ambassador.
STATEMENT OF HON. JAMES F. JEFFREY, SPECIAL 
            REPRESENTATIVE FOR SYRIA ENGAGEMENT AND 
            SPECIAL ENVOY TO THE GLOBAL COALITION TO 
            DEFEAT ISIS
    Ambassador Jeffrey. Thank you very much, Mr. Chairman, Mr. 
Vice Chairman, and Members of this subcommittee. It is a 
privilege to come up here and to talk about something as 
important and as urgent as this. I submitted a written 
statement that you have referred to, Mr. Vice Chairman, and I 
will stand by that.
    I just want to touch on a couple of things, and we can get 
into the questions. One, underlying the specific focus of 
today's hearing, which is the Northeast and what has happened 
last few weeks, there is the underlying reality of Syria, the 
worst human rights and geostrategic disaster of the 21st 
century from whatever standard, use of weapons of mass 
destruction to almost half a million people killed, half of a 
population of over 20 million driven from their homes. Several 
major terrorist organizations, not just ISIS but predominantly 
ISIS but also Hayat Tahrir al-Sham (HTS) has emerged from this 
morass of all horror.
    Intervention by Russia, various other armies are now on the 
ground, ours, the Turks, the Israelis in the air, although we 
don't say that too often officially, but the Israelis mention 
it from time to time, and of course the Iranians. Our policy, 
and here we have laid out that policy, people may disagree with 
it, it may not be well enough articulated, but it is the policy 
and we submitted in response to a non-disclosure agreement 
(NDA) request last year. The request was submitted by the 
President. U.S. policy on Syria on the 1st of March, classified 
secret.
    First goal is the enduring defeat of ISIS. The second is a 
political solution to the morass of Syria that meets American 
and our other coalition partners' goals. And the third is the 
removal of all Iranian-commanded forces from Syria. They have 
no right or reason to be there. They are part of the problem 
not the solution. But let me turn to the situation on Syria 
today.
    First of all, and I know we need to be forward-looking and 
I will try to be today, but I think I have to--we need your 
support, both Democratic and Republican Members of the Congress 
and of the Senate in particular to go forward on the things we 
are going to be doing. So I do want to employ you to bear with 
me as I try to lay out why we did not change our policy 
suddenly in a phone call. I am not going to let President 
Erdogan off the hook. That is what I wrote in my statement and 
I am going to try to reinforce that. We do not have to debate 
on the point back and forth because I do want to talk about the 
future, but I think it is important, so you know that it was 
not just a flippant position.
    Our position has long been four things. One, we were 
absolutely opposed to a Turkish incursion into Northeast Syria. 
We understood their security concerns. It was understood in the 
Obama administration and it was more clearly understood in this 
administration, but we did not think a military action was 
justified and we thought, as it did, it would scramble 
everything. Two, we would not support it in any way, even 
though Turkey was an ally, and on the call on October 6 my 
understanding is Erdogan asked for such support. And you know, 
it could be through air cover and that sort of thing. We did 
not give it and we made that clear.
    Three, we would oppose this action by the usual diplomatic, 
economic carrots and sticks. In fact, a major purpose of the 
call on October 6 was to lay out a package for Erdogan 
involving a visit to the United States, efforts on the terrible 
problem of the S400 and the F-35, where we thought we had a way 
forward. I think the President has briefed some people on that.
    And finally, $100 billion trade package that our Secretary 
of Commerce had been working out in return for which we wanted 
Erdogan not to go in. So we are using all of the tools short of 
military force. We made clear to Erdogan then and in every 
conversation I have had with his people and everybody else I 
know, in every conversation I have had with our SDF allies and 
as far as I know everybody else going back to Ash Carter and 
General Tony Thomas, who were on the record Sunday to this end. 
We are not going to use military force to keep the Turks out of 
Northeast Syria. We did not give a military guarantee to the 
Kurds against Turkey. We gave them military guarantees against 
the regime, against Russian mercenaries and others, but not 
against NATO ally Turkey.
    I do not think that was ever briefed up here, but I would 
really be interested to hear who made that claim that we had 
given such a commitment because my instructions were not to 
ever suggest that. In fact much of our conversations with the 
Kurds, and I had hundreds of them, with General Mazloum, with 
his political advisors and with various other people in the 
Northeast that you had to find some kind of political 
accommodation with Turkey because you couldn't count on us to 
keep the Turks out militarily. We would try diplomatically but 
we would not militarily.
    Once the Turks made clear to President Trump that they were 
coming in, and that was in the call, of course his concerns 
included force protection because we had two little outposts 
with missions. I will leave it to the DoD to try to explain 
what they were doing up there. Our two little outposts of 12 
people each along a roughly 120 kilometer area that the Turks 
were planning on coming into and the President wanted to ensure 
that they were okay, and he said he would move them out of the 
way. But they were not up there to deter a Turkish incursion 
and they could not have even if they were.
    The Turks would have just driven around them as they drove 
around other American units when they came in. So what we did, 
exactly as we told the Turks, as soon as the incursion began, 
we launched first of all an administration effort to put 
together a very tough sanctions package on October 14. Congress 
is working on various sanctions, including yours, Mr. Chairman, 
that are even tougher. We have some concerns about the waiver 
but the signal that this sent to the Turks, believe me having 
been out there and watched how President Erdogan personally 
reacted to what Congress is doing, was quite clear. We also 
undertook all sorts of diplomatic efforts.
    There was a Presidential letter that then became public, 
there was then a Presidential message that I delivered to 
President Erdogan telling him we needed a ceasefire right away, 
or there was a danger of the Russians and the Syrian government 
would come in. The Turks rejected that offer to have a 
ceasefire and sure enough the Russians and the Syrian 
government did come in. So that brought us to the final 
initiative that the President took which was to dispatch, and I 
have never seen this diplomatic trio at that level in any 
negotiation, the Vice President, the Secretary of State, and 
the National Security Advisor all flew out with a group of the 
rest of us and within 5 hours of personal negotiation with 
President Erdogan, we got a ceasefire.
    The Turks have more or less adhered to the ceasefire. 
Yesterday night they announced because the YPG forces, our 
partners, that is the more PKK and more Kurdish element of the 
SDF, had pulled out of the area, roughly 120 kilometers wide 
and 30 kilometers deep where the Turkish forces where, and the 
Turks turned their temporary pause into a more permanent halt 
or what we call a ceasefire.
    For reasons, I won't get into the Turks do not use 
ceasefire. So that is where we are on that. The other two 
areas, realizing that we would not tolerate further Turkish 
military action, the Turks were desperate to try to find out 
what they could do in the rest of the area because they do have 
concerns all along their border. We had offered them a good 
deal back in August and we had started executing that. It was 
called a security zone mechanism giving them patrolling and 
other things out to 30 kilometers and a pullback of the YPG all 
along the border. So the Turks then took up a Russian offer. 
Again, the SDF had turned to the Russians and to the Syrians 
when they realized that the Turks were coming in and we would 
not stop them military.
    The Russians made an offer for Erdogan to come to Sochi and 
Southern Russia, and they negotiated a modified version of our 
safe zone in the other two areas of the Northeast where the 
Turks could patrol with the Russians about 10 kilometers in and 
the YPG would also pull back 30 kilometers.
    So that is where we are right now. We are sorting things 
out. As you know this morning the President not only announced 
that we were lifting the sanctions that we had imposed on 
October 14 because of the Turkish commitment and the Turkish 
decision to halt their operations, but also that we would be 
keeping on a small portion of our forces, having announced that 
we were withdrawing them right after October 6 phone call.
    And we think that that gives us a basis to maintain our de-
ISIS strategy in the Northeast and that strategy and the 
stability that generates, I think, contributes to our other two 
goals, which is the stability of Syria as a whole under a more 
decent government and the removal of Iranian commanded forces. 
I will stop there, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of James F. Jeffrey
    Chairman Graham, Ranking Member Leahy, distinguished Members of the 
Committee, thank you for inviting me here to testify on this important 
issue. As you know, I have just returned from Ankara and I look forward 
to discussing the October 17 Joint Turkish-U.S. Statement (October 17 
Joint Statement) on northeast Syria, which established a 5 day pause in 
Turkish military operations in the northeast running to October 22, a 
withdrawal of Peoples Protection Unit (YPG) forces from those areas 
controlled by the Turkish military, and if all goes well a more 
permanent halt to the Turkish operation, as well as joint Turkish-U.S. 
efforts towards the population in the affected 'safe zone' area to 
ensure security, decent treatment of religious and ethnic minorities 
and restoration of the security smashed by the Turkish offensive 
beginning October 8.
    The conflict in Syria has raged for over 8 years, fueled by Bashar 
al-Assad's regime and his despotic and barbaric treatment of Syrian 
citizens, Russia's continued enabling of Assad's brutality, and Iran's 
malign influence in the region.
    U.S. strategic objectives and national security interests in Syria 
remain the enduring defeat of ISIS, al-Qa'ida, and their affiliates in 
Syria, the reduction and expulsion of Iranian malign influence; and 
resolution of the Syrian civil war on terms favorable to the United 
States and our allies and in line with U.N. Security Council Resolution 
2254. A sound strategy for use of our assistance resources is key to 
achieving these goals.
    The United States has worked closely with our local partners, 
including the Syrian Democratic Forces (SDF) in northeast Syria, in the 
campaign to defeat ISIS since 2014. Our cooperation led to the 
territorial defeat of the so-called ``caliphate'' earlier this year. 
During this time, the United States and our Coalition partners provided 
assistance to restore essential services, support local security and 
governance, to alleviate humanitarian needs, and to help restore the 
local economy in areas liberated from ISIS. These efforts helped meet 
basic needs and create an area of relative stability in Syria, and 
enable the enduring defeat of ISIS elements there.
    One longstanding issue in this campaign has been Turkey's belief 
that there is no distinction between the Kurdistan Workers Party (PKK), 
which both the United States and Turkey have designated as a terrorist 
organization, and the YPG and our partner the SDF. Turkey thus views 
the YPG--a key component of the SDF--as an existential threat which 
receives support from the United States. To Turkey, our cooperation 
with and support to any of these bodies is akin to supporting a 
statelet on its southern border run by a terrorist group it believes 
has declared war on Turkey. The State Department has led efforts over 
the past year and a half to reduce that friction and achieve better 
coordination of U.S. and Turkish efforts regarding Syria.
    When President Trump announced a strong, deliberate and coordinated 
withdrawal of U.S. forces from Syria in December 2018, the 
administration said we were transitioning primary responsibility for 
the defeat of the few remaining ISIS remnants in Syria to our allies 
and partners on the ground inside Syria.
    Beginning in January 2019, the administration worked with Turkey on 
implementing a safe zone in northeast Syria that would prevent the 
resurgence of ISIS, protect Turkish security interests vis-a-vis the 
SDF/YPG, facilitate stabilization, and create conditions to enable the 
safe, voluntary, dignified return of refugees and internally displaced 
persons (IDPs).
    This effort culminated in U.S.-Turkish military-to-military 
arrangement in August for a security mechanism; the SDF was informed 
and supported the elements of that arrangement. The United States, 
Turkey, and the SDF all began executing the arrangement in late August. 
We believe we very quickly implemented the initial steps of the 
arrangement to create an area along approximately 140 km of the border 
region in the northeast. This included YPG voluntary withdrawal to 
approximately 5-14 km from the Turkish border of armed personnel 
generally, displacement of heavy weapons to 20 km from the Turkish 
border, U.S.-Turkish cooperation on Turkish air activity over northeast 
Syria, and joint U.S.-Turkish patrols in the relevant area.
    Turkey from President Erdogan on down disputed the conduct and 
implementation of security mechanism activities, but, more importantly, 
pressed beginning in early September for an entirely different 
concept--one Turkey had tried and failed to foist on the United States 
and, through us, the SDF since January: a 32 kilometer zone to the key 
east-west highway, M4/10, along the entire northeast from the Euphrates 
to the Iraqi border, and sole Turkish military, as opposed to joint 
U.S.-Turkish engagement on area security. Turkey also began stressing 
its desire to move up to 4 million Syrian refugees now in Turkey into 
cities to be constructed in the area, an initiative that went far 
beyond the scope of the military-to-military arrangement. The United 
States at every level has underlined our resolute opposition to this 
plan as a threat to our SDF partners, the fight against ISIS elements, 
and overall security in Syria.
    Indications grew in September 2019 that Turkey was planning for a 
large-scale unilateral operation. Again, all levels of the U.S. 
Government warned Turkey not to act.
    Erdogan, however, said that Turkey would soon move forward with its 
long-planned operation into northern Syria. He was told clearly, 
including by the President, that U.S. Armed Forces would not support or 
be involved, and that the United States does not endorse such actions, 
but that we would not put U.S. forces in harm's way. President Trump 
also publicly warned Turkey that the United States would take measures 
sanctioning the Turkish economy if Turkey were to take steps that the 
United States considers ``off limits.''
    Turkey launched this operation despite our objections, undermining 
the D-ISIS campaign, risking endangering and displacing civilians, 
destroying critical civilian infrastructure, and threatening the 
security of the area. Turkey's military actions have precipitated a 
humanitarian crisis and set conditions for possible war crimes. As the 
President warned Erdogan, we have used diplomatic and economic tools 
available to us to press Turkey to halt its military actions.
    On October 14, President Trump signed an Executive Order designed 
to encourage Turkey to halt its offensive military action in northeast 
Syria and adopt a ceasefire. It provides the United States with the 
authorities to deliver severe economic consequences and apply 
additional pressure if Turkey continues with this offensive. The United 
States has imposed sanctions on three senior Turkish Government 
officials: Hulusi Akar, the Minister of National Defense; Suleyman 
Soylu, the Minister of the Interior; and Fatih Donmez, Minister of 
Energy, and on two ministries, Defense and Energy. Turkey must follow 
through on its commitments from the October 17 Joint Statement with the 
United States to avoid further sanctions under this new E.O.
    The United States undertook various diplomatic initiatives to 
reinforce our sanctions, including a Presidential letter to President 
Erdogan on October 9 and a Presidential message to him 3 days later. In 
the latter we warned the Turks that the SDF was likely to turn to 
Russia and the Assad regime if Turkey continued its offensive, which 
then occurred. The President then dispatched the Vice President, 
Secretary Pompeo, and National Security Advisor O'Brien to Ankara to 
negotiate with Turkey the terms of a ceasefire and the YPG's evacuation 
from affected areas. As I indicated already, on October 17 those talks, 
including 5 hours with President Erdogan, produced a Joint Statement 
outlining a pause that will lead to a ceasefire--that Turkey and the 
YPG are adhering to--for 120 hours to allow the withdrawal of the YPG 
from the Turkish-controlled safe zone. In return, the United States 
committed not to impose new sanctions under the October 14th E.O., 
``Blocking Property and Suspending Entry of Certain Persons 
Contributing to the Situation in Syria.'' Turkey has committed to a 
permanent ceasefire upon completion of the YPG withdrawal; in return, 
the United States would lift the sanctions now imposed under the E.O. 
This solution will save lives and contribute to long-term stability in 
the region.
    Assuming the pause moves to such a longer-term halt, we will work 
with Turkey and local residents on the humanitarian and social 
commitments of the October 17 Joint Statement, cooperate with our local 
partners against ISIS even as the U.S. military continues the 
withdrawal directed by the President, and press for full implementation 
of U.N. Security Council Resolution 2254, the only hope for a long-term 
resolution of the underlying Syrian conflict.
    To these ends, we are looking to organize a number of senior level 
meetings with our international partners involved in the Defeat-ISIS 
Coalition as well as our Syria-focused group. Our intent is to re-
affirm with our Coalition partners the shared goals of ensuring that 
ISIS does not re-emerge.
    Thank you for the opportunity to testify. I look forward to taking 
your questions.

             IMPORTANCE OF SYRIA TO U.S. SECURITY INTEREST

    Senator Graham. Thank you very much. Senator Leahy, do you 
want to go first? Okay. Alright. So let us try to explain to 
someone on the street why Syria matters.
    Very quickly let me tell you why I think it matters. There 
is a border between Syria and Israel, right?
    Ambassador Jeffrey. Absolutely.
    Senator Graham. From an Israeli point of view it would be a 
nightmare for Syria to fall in the hands of the Iranians 
because they would be virtually surrounded by enemies at that 
point. Do you agree with that?
    Ambassador Jeffrey. The Israelis certainly think that way 
from the Prime Minister on down.
    Senator Graham. And Assad is linked up to Iran, is that 
correct?
    Ambassador Jeffrey. Ever more, every day, Senator.
    Senator Graham. So from an Israeli point of view, it would 
be a nightmare for Assad, the Ayatollah to take over Syria. Now 
ISIS, I think most Americans rightly fear ISIS and I hope most 
Americans believe it is in our interest to defeat ISIS over 
there, so they don't come here. In terms of the enduring defeat 
of ISIS, has ISIS been defeated?
    Ambassador Jeffrey. As President Trump pointed out, the 
ISIS Caliphate, and that was a unique and particularly 
dangerous manifestation of Middle Eastern extremist terror, was 
defeated by a U.S. advised SDF Force as well as the Iraqis 
earlier in Iraq in March of this year. But ISIS as an 
insurgent, terrorist organization with anywhere between 14,000 
and 18,000 followers, armed followers in Iraq and Syria, that 
is still out there. It is still a danger.
    And as I saw, it grew from a small group of al-Qaeda people 
in Mosul in the hundreds in 2012 to an army of 35,000 
commanding much territory in 2014, so that is its capability to 
regenerate, Senator.
    Senator Graham. So Raqqa Syria is a special place for ISIS, 
is that correct?
    Ambassador Jeffrey. It is and right now it is under mixed 
control of our SDF and Syria forces.
    Senator Graham. I just want the Americans know that Raqqa, 
Syria under this weird ideology is the place where they are--it 
is their Mecca. That is why they went there. So if we leave, 
they will go back. Do you believe that it has been in our 
interest to partner with the SDF to keep ISIS from 
regenerating?
    Ambassador Jeffrey. Absolutely. It is one of the most 
successful, low-cost, high-return military engagements we have 
ever had, Senator. It also incorporates in one single operation 
all of the dangers and risks, political and even military, of 
getting involved in internal conflict because with that 
wonderful partner came a serious problem with a very important 
neighbor that had its own views of its existential security, 
Turkey.

                                 TURKEY

    Senator Graham. And the goal is to have a win-win so Turkey 
will not be threatened by YPG armed elements, but our Kurdish 
allies will not be decimated. That is the goal, right?
    Ambassador Jeffrey. That was what we were pursuing and 
frankly I don't think quite as well. The last administration--
--
    Senator Graham. So why did Erdogan do this?
    Ambassador Jeffrey. I think he didn't read our signals 
correctly. He is a very----
    Senator Graham. Do you think he understands better now, our 
signals?
    Ambassador Jeffrey. I think this was the first time you 
really hit him hard.
    Senator Graham. So be honest with me, what are our signals?
    Ambassador Jeffrey. First of all very tough sanctions. 
Secondly, the sanctions legislation that is bubbling through 
this part----
    Senator Graham. So you think is helpful for the Congress to 
stay involved with having potential sanctions against Turkey if 
they misbehave?
    Ambassador Jeffrey. We would like the potential, in 
particular Senator----
    Senator Graham. I got you. So the point is, does Turkey now 
understand that a military incursion into Syria is unacceptable 
to American National Security interest?
    Ambassador Jeffrey. I watched Vice President Pence on a 
one-on-one with two interpreters. I was one of them--I am not a 
very good interpreter but I was in the room--make clear to 
President Erdogan----
    Senator Graham. Do you think he understands?
    Ambassador Jeffrey. We need a ceasefire and without a 
ceasefire we would continue down the road that we have been 
discussing, Senator.
    Senator Graham. Do you think the message has been received?
    Ambassador Jeffrey. I think President Erdogan wants a good 
relationship with President Trump and he wants many of the same 
goals in Syria as we do.

                                  IRAN

    Senator Graham. When it comes to containing Iran, one of 
the reasons we are going to guard the oil fields, as it were, 
is we are worried about the oil falling into Iranian hands 
because they are right there on the border. Is that correct?
    Ambassador Jeffrey. That certainly is correct. There are 
many bad actors there. We don't want any of them having control 
of the oil or the area around it.
    Senator Graham. But if we had to pick a list of bad actors, 
Iran would be pretty near the top, right?
    Ambassador Jeffrey. They would be competing with ISIS.
    Senator Graham. Alright, so there is your choices. I don't 
know when is that contest. So I really applaud the 
administration for controlling the oil fields and hopefully 
increasing production to share it with people in Syria not the 
Iranians.

                        SYRIAN DEMOCRATIC FORCES

    Point-blank question if you could answer it, are we going 
to stay in Syria to continue to partner with the SDF?
    Ambassador Jeffrey. Senator as you know, and I think 
everybody in this room knows, this has been debated in this 
administration repeatedly since the first decision to pull out 
which was in the spring of 2018, then the even more specific 
order to pull out in December of 2018, and we have gone back 
and forth inside the administration----
    Senator Graham. Just from your point of view as somebody 
who really is well-respected, do you think it would be a wise 
use of American military assets to have a small force of 
capable U.S. military continuing to work with the SDF to 
prevent the rise of ISIS?
    Ambassador Jeffrey. One, it has been without any doubt. 
Two, I suspect it very much would be in the future. Three, as a 
civil servant I am very reluctant to make those kind of 
decisions.
    Senator Graham. Okay. But those observations are very 
helpful to the subcommittee. Senator Leahy.

                    DECISION TO WITHDRAW U.S. FORCES

    Senator Leahy. Thank you, Mr. Chairman. And thank you, 
Ambassador. As I understand it, I was not there, but when you 
testified before the House, am I correct that you said you were 
not consulted before President Trump's decision to withdraw 
from Syria?
    Ambassador Jeffrey. Quite the contrary, Senator, and I want 
to be very specific. I was not informed of the President's 
phone call until after the phone call, but I consulted through 
Secretary Pompeo almost daily, and Secretary Pompeo more times 
every week, several times every week, with the President 
specifically on Syria. So I had no doubt that my views and the 
views of the people that I reach out to were represented to the 
President, essentially during my time entire tenure.
    Senator Leahy. Even though you are the special rep for 
Syria and the special envoy to ISIS, you did not know he was 
going to make that decision? You were not told?
    Ambassador Jeffrey. Once again, sir, I am caught up on the 
question of the decision. The decision to pull all of his 
troops out, I did not know that, but that gets conflated to be 
honest, and it is a problem I have had for 2 days up here, with 
some kind of green lighting the Turks to go in. He did not make 
a decision to green-light the Turks because he didn't green-
light the Turks.
    Senator Leahy. That is one of the reasons I asked the 
question.
    Ambassador Jeffrey. I know. I am trying to sort my way 
through here. I hope I am not just muddling things more.
    Senator Leahy. I don't think you do that. Consider that a 
complement. But the President has called Erdogan a friend and a 
hell of a leader, I am using his words. He called the five-day 
ceasefire following his unilateral decision to withdraw U.S. 
troops, the incursion of Turkish forces into Syria, as a great 
day for civilization. He says it is a great day for the Kurds.

                           TURKEY AND RUSSIA

    Today he called it a great outcome. When I saw this 
photograph, my reaction was it was a great day for Turkey and 
Russia. I suppose you could have had Bashir Assad and the 
Ayatollah in there. How can you call this, not your words, but 
how can you call this a great day? How can you call it anything 
other than a strategic loss for the U.S., a win for Putin, 
disaster for the Kurds, and uncertainty for our allies?
    Ambassador Jeffrey. Those are all factors to consider, Mr. 
Vice Chairman. I would say that, I cannot put myself in the 
President's mind, but from very extensive back and forth that I 
am privy to, what the President thought was a great day was the 
fact that through extremely vigorous diplomacy led by him, 
including his as he put it unconventional letter, the message 
he sent to President Erdogan, the very blunt sanctions he 
immediately deployed, his work with the Congress, or our work 
with the Congress on your sanctions, and dispatching the Vice 
President to Ankara all within just a few days, bringing this 
offensive to a halt before it could take all that much 
territory, before it would spread throughout the entire 
Northeast and create the sort of human catastrophe that we were 
fearing.
    So I mean several hundred thousand people have left at 
least temporarily their homes. But we were able to stop this 
offensive after 10 days and then impose--not imposed but put 
together a ceasefire which has now been holding for 6 days and 
has become permanent.
    Senator Leahy. Well whatever the sanctions were, they 
lasted a very short time. They have been lifted, the ones he 
imposed in reaction to Turkey's offensive against the Kurds. 
Now here is a picture and I was impressed by, or depressed by, 
of Russian armored personnel carriers entering the Kurdish 
zone, inside Syria. We have seen the pictures of Russians 
gleefully photographing the U.S. facilities that we had to 
suddenly leave behind. We have seen the reports of large 
amounts of ammunition value and fuel that we had to destroy.
    And we had to leave them behind almost like we were running 
away, and the Russians posted that worldwide. I don't mean this 
as a got you question, but is this a new policy, America 
withdraws and Russia goes in?
    Ambassador Jeffrey. The items you have pointed out, Mr. 
Vice Chairman, are all true. They are all painful. I don't 
think I know--we don't have a policy of us withdrawing and 
Russia going in. We have reinforced our military position in 
Europe, particularly in the Baltics. We have done so throughout 
the Middle East including most recently in Saudi Arabia, and 
you know the very strong position we have taken including 
against China in East Asia.
    So, all in all, I think that we are still as we have been 
since the 1940s holding the line for a global collective 
security system. I am very comfortable serving an 
administration that is doing that because I believe, I to my 
heart and soul on that. This is one issue we are going to have 
to work our way through. I think the decision today to keep at 
least a limited contingent of American troops in Northeast 
Syria is an example of working through it.
    Senator Leahy. You know, the Turks call it not a ceasefire, 
but just a pause.
    Ambassador Jeffrey. The inside----
    Senator Leahy. You speak the language?
    Ambassador Jeffrey. I speak the language. The Turkish word, 
ate?kes, is the same, it is ceasefire, cut fire, but they 
didn't want to use that word because they borrowed from the 
Russians. The Russians don't use that word with the Hayat 
Tahrir al-Sham (HTS), which is the terrorist group that 
controls Idlib. So, the Turks said we can't use it with the HTS 
so we will use these other euphemisms. They mean the same 
thing. It is a ceasefire. Walks, talks, and quacks like a 
ceasefire, Senator.
    Senator Leahy. Thank you. Maybe you and I should talk more 
later on.
    Senator Graham. What is the Turkish word for don't do it?
    Ambassador Jeffrey. Yapma. One or another version of it.
    Senator Graham. I need to learn that one. Okay. Senator 
Lankford.

                               THE KURDS

    Senator Lankford. Thank you for being here. How long have 
the Turks and the Kurds been at each other?
    Ambassador Jeffrey. The Turks and the Kurds have lived 
together in peace for thousands of years under the Ottoman 
Empire and with a couple of exceptions of a couple of uprisings 
in the early days of the Turkish Republic in the 1920s. They 
are both Sunni Muslims and in that part of the world religion 
plays a bigger role than ethnicity. The PKK which is an 
offshoot of the Communist Party under Abdullah Ocalan in the 
1980s launched an insurgency trying to spark an ethnic revolt 
in Turkey against the Turkish government for an autonomous or 
independent Kurdistan.
    An analogy is what Masoud Barzani tried to do in 2017 with 
his referendum. The difference is in a nutshell, the Kurds of 
Iraq, and by and large the Kurds in Syria, are clustered in one 
or two areas along the border, and they do represent a totally 
different, not only ethnic but cultural and to some degree 
political entity.
    The Kurds of Turkey are spread all through the country in 
little clumps, but more importantly through intermarriage over 
half of the Kurds in Turkey are totally integrated in the large 
cities and everything else.
    So thus what the PKK was pushing for was not analogous to 
Kosovo, where a very centralized--not centralized but 
consolidated group of one ethnic group broke off from a larger 
ethnicity, but rather what you had in Bosnia or Rwanda, a 
horrific thing where a whole society falls upon itself.
    Senator Lankford. So, in the 1990s the United States listed 
the PKK----
    Senator Graham. Senator Lankford, we are going to give you 
2 more minutes. We are not going to hold the history of the 
Kurdish people against you on your time.
    Senator Lankford. I appreciate that. In the 1990s the PKK 
was listed as a terrorist organization by the United States and 
by Turkey, is that correct?
    Ambassador Jeffrey. First by Turkey then by us, that is 
correct.
    Senator Lankford. So at least since that time, there has 
been an active recognition the United States considers the PKK 
a terrorist organization and has been part of the frustration 
that is a small group of Kurdish people that in somewhat the 
Turks seem to consider them all the same instead of being able 
to consider the PKK specifically. When I talked to the Turkish 
leaders, they seem to consider all Kurds are all aligned with 
the PKK and how can you work with the Kurds outside of Turkey?
    Ambassador Jeffrey. They don't--with the Iraqi Kurds. 
Erdogan has the best of relations with Masoud Barzani and the 
Iraqi Kurds. They don't with their own Kurds. I knew well 
Deputy Prime Minister Simsek----
    Senator Lankford. The Syrian Kurds?
    Ambassador Jeffrey. The Syrian Kurds it is a little 
different partially because almost half a million Syrian Kurds 
have fled to the Northeast when after an internal struggle the 
PKK offshoot, the YPG, took over the pro-Barzani faction in 
about 2012 and those people fled. So, these are the Kurds that 
are now many of them in Turkey.

                                 RUSSIA

    Senator Lankford. Let me ask you this, the Russian bases in 
Syria. They have had permanent bases there, both naval and air 
bases, for how long?
    Ambassador Jeffrey. Since I believe the 1980s if not 
earlier, 1970s.
    Senator Lankford. So Russian presence in Syria and the 
Russian interaction with the Syrian government is not new to 
suddenly they have run into these bases and occupied?
    Ambassador Jeffrey. It is true that it is not new. It is 
also true that we recognize that that is a relationship unlike 
the Iranian one that we are not trying to end.
    Senator Lankford. Right. So, it is interesting to me the 
number of people that bring up and say suddenly Russia is 
involved in Syria when they were not involved before when they 
have had bases there, permanent bases, since the 1980s. We have 
temporary bases in Syria where we operate from, but they are 
not intended to be long term and permanent. Is that correct?
    Ambassador Jeffrey. Exactly.

                            FOREIGN FIGHTERS

    Senator Lankford. The ISIS prisoners that are there, how 
many of them are foreign fighters?
    Ambassador Jeffrey. Of about 10,000 that we captured with 
the collapse of the Caliphate in March, there are about 2,000 
foreign fighters, the rest are all Iraqi, Syrian.
    Senator Lankford. What was the repatriation like at this 
point? How many countries are taking their prisoners back?
    Ambassador Jeffrey. They come from probably almost 100 
countries. We have had pretty good luck with countries in the 
Middle East. For example, North Africa, Morocco comes to mind, 
also countries in Central Asia, Kazakhstan, a few others, and 
we think we may make some progress in Europe with Balkan 
States. But in Western Europe so far Italy has taken one back, 
which is the only success we have had.
    Senator Lankford. The other Western European countries are 
not taking their prisoners back?
    Ambassador Jeffrey. They are not and frankly when reason is 
they don't know what to do with them. They do not have the 
legal system we have here that basically is based on criminal 
syndicate law and the ability to apply that to terrorist 
groups, and thus if you remember, you bear all the 
responsibility of the group. They require individual 
responsibility and guilt and proof and chain of custody and all 
of that. That simply is not possible on the battlefield.

                                REFUGEES

    Senator Lankford. So, let me talk about the returning 
refugees because there are millions of individuals still hoping 
to be able to return back to Syria. What does the refugee flow 
look like from outside of Syria back into Syria?
    Ambassador Jeffrey. There has been very little flow back, 
Senator. We are talking about 6 million people who are refugees 
and 6 million more roughly are internally displaced people. Of 
the refugees so far since I have taken the job less than 
200,000 have come back. The reason is because we have the most 
evil dictator in the world in President Assad and he treats 
them in the same barbaric manner or even worse when they come 
back than he treats the rest of his population and they are 
afraid to come back.
    Senator Lankford. I have visited with some of the refugees 
as I am sure you have as well, and the number one thing that I 
hear from the refugees outside the country is that if they go 
back they fear for their children and for the men to be 
conscripted into Assad's army and they will have to go fight 
his battles for him.
    And so, they are not interested in fighting Assad's battles 
and they won't go back until either he is gone or until there 
is an absolute guarantee that they are not going to be 
conscripted. Are you hearing that?
    Ambassador Jeffrey. That is exactly our understanding and 
the understanding of everybody else I know that deals with 
them, Senator.
    Senator Lankford. So, if Assad continues to stay there in 
power, do those refugees return home?
    Ambassador Jeffrey. The way we put it because that can lead 
in a direction of regime change, an Assad who behaves the way 
he has consistently behaved the last 20 years is a deterrent, a 
dramatic deterrent, to anybody returning. Until he changes his 
behavior fundamentally, absolutely not.
    Senator Lankford. Thank you.
    Senator Graham. And he never will so he has got to go. 
Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Good to 
see you again, Ambassador. Thank you for joining us. You have 
been doing heavy lifting these past few days. You know, the 
ceremony and the agreement effectuated at Appomattox Court 
House could probably be called a ceasefire. It did end 
hostilities between the North and the South, but the history 
books will judge it to be a surrender because one side gave up 
an awful lot and the other side took over the territory they 
controlled.
    And so, I think the Turks are right, I don't think this is 
a ceasefire, I think this is a surrender. The Kurds were not a 
party to this agreement. Ceasefires are normally when the 
fighting stops, and the line of conflict remains where it is. 
The terms of the ceasefire are pretty clear. The ceasefire 
remains only so long as the Kurds decide to remove themselves 
from the territory that they controlled. And so, I just think 
we have to be honest about what this is. This is no victory for 
the Kurds. This is a ceasefire that only holds so long as they 
do exactly what the Turks have wanted them to do.
    But you see it a little differently and that I think you 
have in testimony today and yesterday, you have talked about 
the accomplishment of the ceasefire agreement and you have 
talked about the leverage that was necessary in order to get 
this ceasefire agreement. And you have talked both about the 
sanctions levied by the administration that were held in 
advance or withdrawn but also the threat of congressional 
sanctions.

                               SANCTIONS

    You said that yesterday and today that that was part of 
what got the Turks to agree to this historic ceasefire. So I 
assumed that given that that was part of the leverage that you 
used that your recommendation and the administration's 
recommendation would be for Congress to hold off on passing 
sanctions because you clearly either implicitly or explicitly 
used the threat of congressional sanctions in order to achieve 
this agreement, which I would call a surrender, I think the 
Kurds would categorize it as a surrender, the administration 
calls a victory.
    Ambassador Jeffrey. We do see those sanctions including a 
copy of one of them dropped on the lap of the Turkish 
delegation halfway through the negotiation last Thursday as an 
incentive to negotiate with us rather than go on. And the YPG 
did not surrender, they withdrew. They were on the losing end 
of the military battle. They were holding two towns up until 
the very end right on the Turkish border, but they were 
essentially surrounded on the larger scheme of things.
    But it isn't that something we--specifically I was in 
contact with them throughout the negotiation with the Turks. 
They accepted that agreement because they want to preserve 
their forces and they want to essentially live to fight, or at 
least politically engage, another day, which is what they are 
doing now.
    If we had not stopped the fighting, if it had accelerated 
and expanded and escalated, not only would we probably be 
pulling our forces out even more quickly, it is impossible for 
you to imagine the President deciding to keep some on.
    Senator Murphy. Understand that they didn't surrender 
because they weren't a party to the agreement, we surrendered 
for them and gave them the choice as to whether to move out 
under the terms of the agreement or not. Second, and again, I 
think you have a tough task coming up here and I understand 
that you didn't make these decisions, but you are the only 
person we have to talk to at this point.

                          U.S. FORCES IN SYRIA

    I want to talk to you about this question of troop presence 
around the oil fields. I have two concerns that I wanted to 
just get your thoughts on. This sounds like a bit of a panicky 
reaction to the President's announcement of full withdrawal.
    One, what are the ways in which we supply a troop presence 
that is isolated in a portion of the country that is going to 
be bracketed by territory controlled by any of these other than 
the United States?
    And second, in Senator Graham's statement today, and he has 
talked to the President probably a lot more than you have, he 
referenced using some of the revenues to pay for our troop 
presence in Syria. That sounds like a pretty complicated 
transaction in which the United States is going to get revenue 
from the oil fields, which in a lot of ways would you know 
frankly play to everyone's fears about our interests in the 
region that we really just want to be able to make money off 
the oil.
    Are there any plans right now on how to supply and resupply 
troops that would be isolated in a corner of the country that 
doesn't have a major troop presence today? And two, have you 
been briefed on any plans for the United States to glean oil 
revenues that would be produced alongside our protection?
    Ambassador Jeffrey. Sure, and quickly on the surrender, the 
Kurds left with their uniforms, with their weapons, with honor 
and dignity and that was the decision of various of us 
including me to ensure that that happened, and it did happen. 
On your two questions, the first one is more question for DoD, 
but because it is a relatively easier question, I know they are 
working on it and we do contemplate I believe maintaining one 
of our two airfields that is there so that is the primary way 
we get things in or out.
    But there are roads and other systems to and from Iraq. In 
terms of the other one, which is more of a Department of State 
thing, what are we going to do with these oil fields? That is a 
really good question and we are really working hard on it, but 
we do not have an answer at this time.
    Senator Graham. Senator Moran.

                          KURDS AND CHRISTIANS

    Senator Moran. Chairman, thank you. Ambassador, thank you 
for being here and for your testimony. First of all, I would 
tell you that I have been in Kansas and I certainly pay 
attention to my phone calls and mail. Not every foreign issue 
generates the attention that this one has generated at home 
among Kansans and I think a couple of things perhaps are 
involved in that. There is concern and I would like to have you 
tell me how I answer the question of those who believe that the 
Kurds were our allies and that what has transpired has 
demonstrated the fecklessness of the United States in staying 
close to their allies, supportive of their allies?
    And secondly, there has been an interest in not only the 
Kurds but Christians and perhaps you can tell me how what has 
transpired has consequences to Christians in the region? And 
then if we have more time, I have a couple other questions.
    Ambassador Jeffrey. We recognize that this was a big blow 
to our Syrian Democratic Forces (SDF) allies, some of whom are 
Kurds and some of whom are Arab but certainly the core 
leadership is the People's Protection Units (YPG) and the 
Democratic Union Party (PYD), which are again these Kurdistan 
Workers' Party (PKK) offshoots and it was a blow to them. If we 
are not careful it will be a blow to the Kurdish population 
regardless of who they support if they are not treated 
correctly.
    In our agreement with Turkey that we signed--not signed, 
but we agreed to, on the 17th we ensured that there was good 
language in there on the protection of civilians and 
specifically ethnic minorities and religious minorities. There 
are some Christian groups in the Northeast. They have generally 
been relatively well taken care of by the SDF, YPG Kurds, and 
they are generally well taken care of.
    There is one group of people that the Assad regime is 
fairly careful with is the Christian minority because by and 
large they tend to support him as an alternative to radical 
Sunni terrorists and Islamic extremists. But we are watching 
that very closely. The President just approved a $50 million 
package for our ethnic and religious minorities in the 
Northeast of stabilization funding and we are looking for ways 
to ensure that that money is delivered.
    Senator Moran. So, the support for Kurds and others is 
demonstrated by the agreement with Turkey and then it relies 
upon Turkey abiding by that agreement.
    Ambassador Jeffrey. Right. But as Ronald Reagan once said 
trust but verify. That is, our trust threatened, we are ready. 
The agreement with the Kurds that we would lift the sanctions 
we imposed under the executive order, 14 October, serious 
sanctions.
    We lifted the specific sanctions on three ministers and two 
ministries, we did not pull back the executive order. It is 
still there. It is very broad. It is very powerful. And it is 
an incentive for people to adhere to their agreements.

                           U.S. GOAL IN SYRIA

    Senator Moran. I also think it is true that many of my 
Kansans, many of my constituents also are tired of wars in the 
Middle East, tired of the wars generally, and concerned when 
our involvement lasts a long period of time. I am still trying 
to determine what the goal is in Syria for this administration 
or the U.S. policy.
    I think the original goal was the destruction of the 
Caliphate, but I think other things have now been said such as 
enduring defeat of ISIS, Al Qaeda, and their affiliates in 
Syria, the reduction and expulsion of Iranian malign influence, 
resolution of the Syrian Civil War on terms favorable to the 
United States. That is different than what I think our original 
goal of destroying the Caliphate was. What is our goal in Syria 
today?
    Ambassador Jeffrey. Senator, that is a very important 
question and even after 50 years of dealing with the question 
of American military force around the world, I have had to 
learn new things and rethink this in the past few days. As a 
Nation we have national security and other national interests 
supporting objectives around the world. We also have many 
different ways to pursue them. You can have goals and 
international relations that you are not willing to use 
military force for.
    And you have goals, like protecting South Korea, you are 
willing to use military force for. You have goals that you use 
diplomatic pressure or diplomatic incentives for. That is how 
we were dealing with the Turks. You have goals that you use 
military force for. That is what we are doing with our troops 
in Northeast Syria against ISIS. The complication comes for 
this body of people who deal with this all of the time, for us 
who in my case have dealt with it my whole life, and for our 
soldiers when particularly in internal conflicts, not the 1991 
Gulf War where you had a one-sentence order, clear Iraq out of 
Kuwait, but you are dealing with various groups, the rules of 
engagement an American soldier had to carry.
    General Tony Thomas discussed this on Face the Nation just 
Sunday how many different forces were within modern range of 
him and while he didn't get into a lot of detail, I know you 
had a different set of rules of engagement for each one of them 
whether you could attack them only if they shot at you. That is 
the problem with this. Those are legitimate goals of national 
policy, all three of them. Only one of them was being pursued 
by military force in Syria, which was a defeat of ISIS, sir.
    Senator Moran. So, the three goals that I indicated to you 
that I believe, or I have heard are our goals, and your point 
is some of those goals, one of them involves potential military 
action?
    Ambassador Jeffrey. Exactly, Senator.
    Senator Moran. Thank you.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Welcome, Mr. 
Ambassador. I have known you sometime and I have great respect 
for you and your service. I really do. You were not on the 
phone call between President Trump and President Erdogan, 
right?
    Ambassador Jeffrey. I was not, Senator.
    Senator Van Hollen. And until I see a transcript of that 
call, I have to judge what happened in the call by the results 
of that call. And what happened was after President Trump and 
President Erdogan hung up the phone, Turkish troops attacked 
our Syrian Kurdish allies using incredibly brutal tactics with 
some proxies that include Al-Nusra and other Jihadi elements. 
And so, I agree with all those who say this was a shameful day 
for America and American leadership.
    I agree with The Economist when it says who can trust 
Trump's America, the consequences of betraying the Kurds. You 
know that former military officials are very reticent to speak 
against a commander-in-chief and yet we have a whole series of 
highly respected, high-level military officials who serve in 
this part of the world who also say this was a betrayal and a 
surrender of U.S. leadership. That is what it is and there is 
no sugarcoating.

                    PURPOSE OF U.S. FORCES IN SYRIA

    The question is where do we go from here questions? Now as 
I understand the President said that we are going to keep a 
small number of U.S. troops in Syria to protect the oil fields. 
My question, Mr. Ambassador is that our position is that we 
will protect the oil fields but that we will not protect the 
Syrian Kurds. That we will protect the oil but will allow 
Turkey or others to slaughter our Syrian Kurdish allies. Is 
that the position of the United States?
    Ambassador Jeffrey. We are continuing to conduct the 
operations against ISIS. That is my understanding, and we are 
still working on it of that decision to keep----
    Senator Van Hollen. Mr. Ambassador, I am asking you the 
President says he is going to keep some troops on the ground to 
protect the oil. My question is are we protecting the oil and 
are we also going to protect our Syrian Kurdish allies from 
slaughter by Turkey?
    Ambassador Jeffrey. I know of no military order and I don't 
think we would see, I could be wrong here. I don't think we 
will see a military order to--again protect the Kurds against 
whom? Against ISIS, yes, that is an existing order that our 
troops have. Against Turkey or against Russia?
    Senator Van Hollen. So, who are we protecting the oil 
fields against just ISIS or protecting them against Russia too? 
That is what the President says.
    Ambassador Jeffrey. We are trying to keep them out of the 
hands of people who would steal them from the Syrians.
    Senator Van Hollen. Does that include Russia?
    Ambassador Jeffrey. It could well be on the list.
    Senator Van Hollen. Well, so what are we going to do to 
protect the oil fields from Russia?
    Ambassador Jeffrey. Right now, Russia is nowhere near the 
oil fields, Senator.
    Senator Van Hollen. Yes, but that is not--I understand that 
but as you know Russia has got a lot of leverage in Syria right 
now, a lot more than we do.
    Ambassador Jeffrey. We have got a lot of experience 
deconflicting on a daily basis.
    Senator Van Hollen. So, are we going to--so it is not our 
policy to protect the Syrian Kurds from ethnic cleansing by the 
Turks, is that right?
    Ambassador Jeffrey. It is our policy. But again, I have to 
come back to this issue. I will not let it go. It is our policy 
to do that by diplomatic and political and economic means not 
by military.
    Senator Van Hollen. So, are we willing to provide any air 
cover to prevent the slaughter of the Syrian Kurds, our allies?
    Ambassador Jeffrey. That is military force, sir.
    Senator Van Hollen. So, we are not willing to do that?
    Ambassador Jeffrey. That is right. We are not going to not 
use ground troops but bomb from the air. Again, this could 
change tomorrow, but I am telling you what it has been since 
2014 in Syria.
    Senator Van Hollen. Well, it was also our policy to have 
some special forces on the ground which I do think deter Turkey 
but let me ask you this question because President Trump says 
he would destroy the Turkish economy if they opposed the 
positions we are taking. And I appreciate the fact you 
mentioned that the bill that Senator Graham and I introduced 
had a sobering impact on Turkey because I have to say that the 
sanctions proposed by the administration in my view were little 
pinpricks.

                               SANCTIONS

    But here is my question. The President says he will destroy 
the Turkish economy if Turkey undermines our position. If 
Turkey kills Syrian Kurds outside the so-called safe zone, 
which you all negotiated, would that trigger sanctions by the 
Trump administration on Turkey?
    Ambassador Jeffrey. What the President said at one point in 
describing his sledgehammer against the Turkish economy was if 
they go outside the lines. From everything I have gotten from 
Vice President Pence and the guidance that he brought from the 
President, if there was any indiscriminate attack on anybody, 
Kurds--remember where the Turks came in were Arab areas largely 
not Kurdish. I think that we would move towards a repeat of 
what we saw our up until this ceasefire.
    Senator Van Hollen. So, let me just make sure I understand. 
You would recommend that if Turkey starts killing Syrian Kurds 
and other partners outside the so-called safe zone that the 
United States should apply economic sanctions on Turkey, right?
    Ambassador Jeffrey. Specifically, we have language for 
this----
    Senator Van Hollen. Right, so that would be a violation of 
the agreement we reached with Turkey.
    Ambassador Jeffrey. If it is inside a violation, even if it 
is outside, my recommendation would be return to the sanctions. 
And that is where I strongly believe this administration is 
right now.
    Senator Van Hollen. I hope there would be much tougher 
sanctions. And that let me ask you this, if Turkey tries to 
populate Northeastern Syria with Syrian refugees who do not 
come from that part of Northeastern Syria, in other words 
ethnic cleansing by another means, would that trigger American 
economic sanctions on Turkey? Should that be a condition?
    Ambassador Jeffrey. That would trigger a very strong 
reaction. I cannot testify what that reaction would be because 
we have a specific agreement with the Turks back in August that 
they would return people from the region and conducted using 
the United Nations High Commissioner for Refugees (UNHCR) 
standards of voluntary, dignified, and safe.

                           TURKEY AND RUSSIA

    Senator Van Hollen. Okay. Last question. I am not asking 
you to read the President's mind. I am not asking you to 
interpret his words. I am asking you whether you think the 
Erdogan and Putin agreement serves American national interests.
    Ambassador Jeffrey. I am desperately trying to get to my 
Russian and Turkish contacts to try to find out more details 
about it. I am personally skeptical.
    Senator Van Hollen. Thank you, Mr. Chairman.

                         SUPPORT FOR THE KURDS

    Senator Graham. Thank you. One observation and then we will 
turn to Mr. Daines. I want it to be understood that the 
Congress would act decisively if Turkey tried to slaughter the 
Kurds. The Congress would act decisively if there was ethnic 
cleansing. I hope Turkey understands that we owe it to our 
Kurdish allies to not abandon them and lead them to be 
slaughtered.
    So, I just want Ambassador, do you understand? But I think 
I speak for most of the people in this body that we would like 
to maintain a relationship with Turkey because it is important. 
But if they do the things that Senator Van Hollen described, 
that not only would be the end of the relationship, it would be 
the beginning of the end of their economy and nobody should 
want to go there.
    Senator Van Hollen. Mr. Chairman, could I briefly just 
support----
    Senator Graham. Sure.
    Senator Van Hollen. I would just, Mr. Ambassador, support 
that statement and the way to make that happen is not for 
Congress to wait till after that kind of slaughter begins, but 
to act the past them now so they would be triggered 
automatically if Turkey undertook that kind of activity.
    Senator Graham. Senator Daines. Sorry.
    Senator Daines. Mr. Chairman, thank you and thank you for 
your leadership on this issue.
    Senator Graham. All I can say is I have never seen the 
Congress respond so swiftly and united, and I think we owe it 
to the Kurds because they died in large numbers to keep our 
troops from having to die to fight a common enemy, and I do not 
want to make an enemy of Turkey, but at the end of the day we 
are going to judge them by their conduct. And thank you, 
Senator Daines.
    Senator Daines. Well, you have been an outspoken leader 
leading from the front, Mr. Chairman.
    Senator Graham. Thank you.
    Senator Daines. Ambassador, good to have you here as well. 
Over the course of the last several weeks chaos has reigned in 
Syria following the removal and reduction of U.S. forces in the 
region. We have seen reports of ISIS prisoners escaping 
detention facilities. We have seen coordinated campaigns 
against ISIS cells halted, and a pact between the Assad regime 
and the Kurds facilitated by the Russians, and President 
Erdogan meeting directly with Vladimir Putin on Syria.
    The reduction of American presence in Syria has resulted in 
increased influence of Russia and Iran and set the stage for a 
potential resurgence of ISIS. I think withdrawal would be 
detrimental to our national security. While there are reports 
that some residual forces may remain in Syria, I have concerns 
that many of the costs have already been borne and the negative 
impact of the withdrawal of U.S. interest will continue to only 
intensify.
    Our presence in Syria, while minimal, had resulted in great 
progress in the fight against ISIS and support of our allies in 
the region who bore the brunt of the fight and specifically, of 
course, the Kurds. This withdrawal has placed those gains at 
substantial risk. I believe it is critical the U.S. hold Turkey 
and President Erdogan accountable for their actions against the 
Kurds and look forward to working with my colleagues if the 
Senate considers any related proposals, some already 
articulated by my colleague Senator Van Hollen as well as 
Chairman Graham.

                            ISIS RESURGENCE

    My question for you, Mr. Ambassador, in your testimony you 
highlighted the work that was done with the Syrian democratic 
forces to defeat ISIS and help restore liberated areas. What 
risk is there in ISIS resurgence and what is being done to 
mitigate that risk?
    Ambassador Jeffrey. Our biggest concern of an ISIS 
resurgence still remains is Iraq where they have perhaps deeper 
roots among the Sunni Arab communities going back to a decade 
and a half ago. And where in some respects Baghdad's policy 
decisions have not lent themselves to the best anti-ISIS 
strategy in the field. We are concerned, however, with the 
pressure on the SDF, both military pressure, although that is 
off at least for the moment but the SDF is going to be wary, 
and possible reduction.
    Even if we leave some forces on--obviously there was a 
reason we had many hundreds of U.S. troops there. They were all 
doing important jobs related to defeating ISIS. Some of that 
stuff we can do from over the horizon, some of it we can have 
our coalition partners do. There were some of them on the 
ground.
    But yes, we will be under pressure. We will be challenged 
more with a smaller force, and we would be definitely very much 
challenged if we didn't have any boots on the ground.

                                 TURKEY

    Senator Daines. Question for you about, you have 
communicated with the Turks and specifically what communication 
if any did you have with the Turks related to what the U.S. 
response would be to any invasion of the area?
    Ambassador Jeffrey. I had many, many conversations with 
them. These were on instructions from the White House and 
Secretary Pompeo.
    Senator Daines. And when did these communications occur?
    Ambassador Jeffrey. Essentially every week if not more 
frequently since I took this job in September of 2018, but I 
was just picking up on what my predecessors had done because 
this has been a long-standing problem. We basically said that 
we think it is an extremely bad idea if you come in. We did not 
say we would use military force.
    In fact while that came up really we made it clear that it 
was not something we would use military force against a NATO 
ally but that we would use all the other elements in our 
diplomatic quiver from mobilizing our coalition partners 
politically against Turkey to sanctions, to withholding things 
Turkey wanted from a visit to America, to trade deals, and 
various other things that any two important countries have in a 
diplomatic context.
    Senator Daines. Let me just go back to talk about the 
Turks. What about the communication you had with the SDF 
regarding the U.S. response to any invasion of the area?
    Ambassador Jeffrey. Right, final thing with the Turks was 
we certainly told them often and directly from the President at 
the end that if they did come in they were not going to defeat 
the Kurds anyway because they would create a mess with us, with 
the Russians, the Syrians, and they would soon be brought to a 
halt which is just what happened.
    With the Kurds it was similar. It was we told them that we 
were opposed to any Turkish intervention, but that we were 
trying to work one or another deal. One is called a Manbij 
Roadmap with the Turks and the People's Protection Units (YPG). 
Another one is called the safe zone mechanism we did in August 
with the Turks and the Kurds.
    That is we had various ways to try to intercede politically 
between the two groups to meet Turkish security concerns, to 
meet the YPG or the SDF's security concerns and its ability to 
continue operating and that was all buttressed by a variety of 
political, economic, and diplomatic sticks and carrots. It did 
not involve either commitments to the Kurds for military action 
nor military threats to the Kurds, rather threats of other 
action.
    That is the sum of it, everything I said, and I am 
essentially positive that every other U.S. official who is in a 
position to speak authoritatively on this going back to Ash 
Carter who as I said, said Sunday that he did tell the Kurds 
that they would not oppose Turkey militarily, that has been a 
long-standing policy.
    Senator Daines. Looking at these agreements that we have 
put in place between the Syrian regime, Russia, the Kurds in 
Northern Syria that allow Syrian troops to be deployed along 
portions of the border of Turkey. How does that impact U.S. 
interest in the region?
    Ambassador Jeffrey. As I said, I still need to see the 
details but my initial first blush, I am skeptical it will be 
beneficial to us. On the other hand, we saw the picture of 
President Erdogan and President Putin talking about Syria. That 
picture could have been taken about 15 times in the last 4 
years because they have been coordinating closely on Syria 
while at the same time their interests in Syria are 
diametrically different.
    Russia is supporting the Assad regime. Turkey is against 
the Assad regime. Russia is allowing Iran in. This is a 
national security threat to Turkey. So, the Turks are dealing 
with the Russians just like we do but they are not in an 
alliance with them.
    Senator Daines. Ambassador Jeffrey, the most recent 
incursion by Turkish forces into Syria is not unprecedented. It 
closely mirrors the methods and rationale used by Turkey to 
invade the area Afrin in 2018. Was the 2018 incursion by 
Turkish forces a net benefit for U.S. interests and values in 
Syria?
    Ambassador Jeffrey. It had, to be honest with you, 
relatively little impact on either side. It had considerable 
human impact on people who had to flee because they felt 
endangered, particularly Kurds, but it had a little impact on 
the battle against ISIS. There was some delay of a few months 
but beyond that we continued on, and it had little impact on 
our relationship with Turkey.

                     CHRISTIAN AND MINORITY RIGHTS

    Senator Daines. As you know, there was deliberate 
destruction of Yazidi and other religious sites in Afrin after 
Turkish backed forces took control of the area. And Christian 
and other minority populations fled for the incursion. Did you 
raise the treatment of minority populations or other related 
issues during your sessions with the Turks?
    Ambassador Jeffrey. I did. Vice President Pence did 
repeatedly. And we have language in a paragraph for the two 
countries to reiterate their pledge to uphold human life, human 
rights, and the protection of religious and ethnic communities. 
Vice President Pence was particularly insistent on that with 
President Erdogan.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Daines [presiding]. Thank you, Mr. Ambassador. I 
guess I am the last Senator sitting here so I am taking over 
the Chair here for the Chairman as he is voting. We will wrap 
up. Okay. I want to give thanks again to the witness for 
appearing today. Mr. Ambassador, appreciate it. I would ask 
that subcommittee Members submit any questions for the record 
no later than this Friday by 2:00 p.m.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to James F. Jeffrey
            Questions Submitted by Senator Patrick J. Leahy
    As I noted in my opening statement, there are fundamental questions 
that have gone unanswered by this administration regarding Syria. You 
were asked what our strategy is there, and you responded by listing 
goals. Goals are not a strategy:
    Question. How does the administration plan to achieve each of those 
goals?
    Answer. With regard to the enduring defeat of ISIS, the U.S.-led 
Coalition to Defeat ISIS continues to coordinate with the Syrian 
Democratic Forces (SDF) and take actions that disrupt and target ISIS 
networks. We continue to closely monitor the security situation in 
northeast Syria and maintain de-confliction with relevant nations. We 
complement this military effort by coordinating closely with the SDF 
and Syrian Democratic Council to support stability in northeast Syria. 
The President has been clear that U.S. troops will remain in northeast 
Syria to ensure the enduring defeat of ISIS.
    With regard to facilitating a resolution of the Syrian civil war on 
terms favorable to the United States and our allies and in line with 
U.N. Security Council Resolution 2254, the United States continues to 
exert maximum political, diplomatic, financial and economic tools to 
pressure the regime and its allies make progress on a political 
resolution to the Syrian conflict based on UNSCR 2254. The key elements 
of the resolution are a lasting ceasefire and a political process that 
includes development of a new constitution leading to eventual free and 
fair elections. Central to this strategy is our efforts with 
international partners to ensure that the Assad regime remains 
diplomatically and economically isolated until it forgoes its goal of a 
military victory.
    With regard to the reduction and expulsion of Iranian malign 
influence, we remain committed to pushing back on malign Iranian 
influence, seeking the withdrawal of all Iranian-commanded forces from 
Syria, and supporting Israel's right to self-defense against Iran. The 
United States is applying economic pressure to deny the Iranian regime 
funds that it would otherwise use for malign activities. This amounts 
to a loss of more than $30 billion per year, with a total loss likely 
already exceeding $50 billion since May 2018. We are collaborating with 
regional neighbors to put even more effective pressure on Iran for the 
first time in a long time. We have made it clear, including in our 
ongoing Syria exchanges with Moscow, that the withdrawal of these 
forces is a precondition to any lasting resolution of the Syrian 
conflict.
    Question. How does this latest policy shift help to achieve those 
goals?
    Answer. U.S. strategic objectives and national security interests 
in Syria remain the enduring defeat of ISIS, al-Qa'ida, and their 
affiliates in Syria; the reduction and expulsion of Iranian malign 
influence; and resolution of the Syrian civil war on terms favorable to 
the United States and our allies and in line with U.N. Security Council 
Resolution 2254. The Turkish incursion into northeastern Syria and the 
resulting adjustments to the U.S. presence there do not significantly 
change our strategy.
    Question. President Trump declared the 5 day ceasefire in Syria a 
great victory for the world. It is a ``triumph for Turkey'' that 
cemented Turkey's control over territory previously held by the Kurds. 
Was it a triumph for Turkey?
    Answer. Turkey launched Operation Peace Spring on October 9 despite 
our objections, undermining the D-ISIS campaign; endangering and 
displacing civilians; destroying critical infrastructure; and 
threatening the security of the area. However, under the Joint Turkey-
U.S. Statement on Northeast Syria, the administration secured a 
permanent halt to the Turkish operation. We assess Turkey remains in 
adherence with the commitments made under this agreement and, as noted 
above, we have not significantly changed our strategy.
    Question. Was it also a triumph for Russia? For Bashar al Assad? 
For Iran?
    Answer. The conflict in Syria has raged for 9 years, fueled by 
Bashar al-Assad's regime and his despotic and barbaric treatment of 
Syrian citizens, Russia's continued enabling of Assad's brutality, and 
Iran's malign influence in the region. We have in no way ceded our 
influence in Syria or in the region. We remain committed to pushing 
back on malign Iranian influence. We have used and will continue to use 
our diplomatic and economic leverage to ensure that Russia cannot 
single-handedly dictate Syria's future. We will apply careful diplomacy 
with the Russians-backed by economic tools and broadly supported 
international pressure on Assad-to leverage Russian influence on the 
Assad regime to not only seek a lasting negotiated political solution 
to the conflict in Syria, but also to cease its indiscriminate bombing 
of civilian targets in Idlib.
    Question. Since the beginning of the Turkish military invasion of 
Syria two weeks ago, at least 160,000 people, including about 70,000 
children, have been displaced, and reports of civilian casualties and 
allegations of war crimes have compounded the humanitarian crisis in 
northeastern Syria: What is the United States doing to help ensure the 
provision of humanitarian aid to those affected?
    Answer. We have and will continue to work with humanitarian actors, 
Turkey, and local residents on the humanitarian and social commitments 
of the October 17 Joint Statement, including several high-level 
exchanges with Turkey on allegations of civilian casualties and war 
crimes; cooperate with our local partners against ISIS even as the U.S. 
military continues the repositioning of troops directed by the 
President; and press for full implementation of U.N. Security Council 
Resolution 2254, the only hope for a long-term resolution of the 
underlying Syrian conflict. Additionally, U.S. humanitarian partners 
are providing life-saving assistance to collective shelters currently 
hosting people displaced by the recent conflict, to include water, 
sanitization, and hygiene support.
    Question. Did the Turkish operation and ongoing Turkish, Syrian, 
and Russian involvement in areas previously controlled by the Syrian 
Democratic Forces have any impact on where we provide such assistance?
    Answer. Before the Turkish incursion, about two dozen U.S.-funded 
humanitarian organizations, including U.N. agencies and NGOs, operated 
in northeast Syria. Most of these partners continue to provide 
essential life-saving assistance to people in need in northeast Syria 
and across the country.
    Question. What is the administration doing to verify allegations of 
war crimes, and is the administration going to suspend or condition 
further arms sales to Turkey, as some of our European allies have done, 
until there is a thorough investigation of, and accountability for, any 
such crimes? If not, why not?
    Answer. The Department of State continues to raise the issue of 
alleged human rights violations or abuses and violations of 
international humanitarian law with officials at high levels of the 
Government of Turkey and reiterated our expectation that Turkey 
investigate these alleged violations and abuses and promote 
accountability, including by holding those under its jurisdiction 
accountable.
    The United States will closely monitor any reports on the possible 
use of U.S.-origin weapons in recent military actions. Turkey is aware 
that human rights abuses or violations of international humanitarian 
law are unacceptable and that any such abuses or violations could 
affect future arms transfers.
    Question. Whether as a result of the alleged use of white 
phosphorous munitions or any other action, did the Government of Turkey 
violate any international law, U.S. law, or terms of any applicable end 
use agreements in its operation in northern Syria, and if so, what 
action does the administration intend to take in response?
    Answer. The Department is aware of reporting alleging the unlawful 
use of white phosphorous by Turkish forces. The Department takes 
seriously all allegations of violations of international humanitarian 
law (IHL). At this time, we have no credible information related to 
Turkish forces using white phosphorous in a proscribed manner, to 
include intentional use against civilians. The Department has raised 
this allegation at high levels of the Government of Turkey and 
reiterated our expectation that Turkey fully investigate alleged 
violations and hold those responsible for human rights violations or 
abuses and violations of IHL to account. We continue to closely monitor 
reporting by international and non-governmental organizations related 
to alleged abuses or violations of human rights and violations of IHL 
during Turkey's invasion of Syria, and will continue to press Turkey to 
respond appropriately to any credible allegations.
    Question. Is the administration willing to accept Russia and Iran 
determining Syria's future, and if not, how will this policy shift help 
prevent that outcome?
    Answer. We have in no way ceded our influence in Syria or in the 
region to anyone, particularly Russian and Iran. We remain committed to 
pushing back on malign Iranian influence, seeing the withdrawal of all 
Iranian-commanded forces from Syria, supporting Israel's right to self-
defense against Iran, ensuring the enduring defeat of ISIS, and 
supporting a solution in Syria consistent with U.N. Security Council 
Resolution 2254. The United States is applying economic pressure to 
deny the Iranian regime funds that it would otherwise use for malign 
activities. This amounts to a loss of more than $30 billion per year, 
with a total loss likely already exceeding $50 billion since May 2018. 
We are collaborating with regional neighbors to put even more effective 
pressure on Iran for the first time in a long time.
    The United States continues to work with partners and allies in the 
region to counter Russian influence. We have used and will continue to 
use our diplomatic and economic leverage to ensure that Russia cannot 
single-handedly dictate Syria's future. We will apply careful diplomacy 
with the Russians-backed by economic tools and broadly supported 
international pressure on Assad-to leverage Russian influence on the 
Assad regime to not only seek a lasting negotiated political solution 
to the conflict in Syria, but also to cease its indiscriminate bombing 
of civilian targets in Idlib.
    Question. How does the administration explain suspending hundreds 
of millions of dollars in U.S. aid for Syrian civilians since last 
March?
    Answer. Through intensive efforts to encourage burden-sharing 
within the D-ISIS Coalition, the U.S. has secured pledges and 
commitments of over $600 million since 2018 from Coalition partners for 
stabilization and early recovery efforts in NE Syria and expects 
additional commitments moving forward. The contributions of our 
coalition partners and the $50 million recently announced by the White 
House for Syria--which will be coming online soon--will continue vital 
stabilization efforts and support the administration's priorities, 
including supporting members of religious and ethnic minority groups, 
in Syria. The administration, with Congress's support, has in addition 
provided $10 billion in humanitarian assistance to Syrian civilians 
since the conflict began--the largest national contribution in this 
conflict.
    Question. How does the administration intend to spend the $40 
million provided by Congress for stabilization programs in Syria in 
fiscal year 2019, and the $50 million recently announced by the 
President for programs to ``protect ethnic and religious minorities and 
advance human rights''?
    Answer. In October, the White House announced $50 million to 
protect persecuted members of ethnic and religious minority groups, 
advance human rights, and support accountability and stabilization. 
This funding will provide assistance to Syrian human rights defenders, 
civil society activists, and ethnic and religious minority victims of 
the conflict. It will also support efforts to hold the Assad regime and 
ISIS accountable, and support removal of explosive remnants of war, 
community security, reconciliation, and other stabilization programs in 
areas liberated from ISIS. As program planning solidifies, we plan to 
use fiscal year 2019 funding that is earmarked for Syria stabilization 
assistance, as possible, to support portions of the President's 
announcement.
    Question. Given the extreme insecurity on the ground, who will 
implement these programs, where, and what impact did the recent policy 
shift have on your assessment of the likely effectiveness of these 
programs?
    Answer. Given the dynamic security situation on the ground in 
northeast Syria, State Department and USAID implementers will continue 
to assess the security situation on a day-to-day basis and adjust or 
pause certain activities as the situation requires. Our staff will 
continue to manage and oversee stabilization and humanitarian 
programming from the United States and U.S. embassies in the region.
    Regarding the $50 million announced by the White House in October, 
the State Department and USAID are working through allocation of this 
funding. We will be in touch with Congress to work through details on 
specific projects and organizations that will be supported when we are 
prepared to notify the funds.

                         CONCLUSION OF HEARINGS

    Senator Daines. The subcommittee stands in recess subject 
to the call of the Chair.
    Ambassador Jeffrey. Thank you, Mr. Chairman.
    [Whereupon, at 3:40 p.m., Wednesday, October 23, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]
</pre></body></html>
